   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
South Dakota, Department of
Game, Fish and Parks, from
    July 1, 2001, through
        June 30, 2003




   Report No. R-GR-FWS-0026-2003

                         April 2004
               U
               Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                        Deeppaarrttm
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191


                                                                                          April 22, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of South Dakota, Department of Game, Fish and Parks,
           from July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0026-2003)

       This report presents the results of our audit of costs incurred by the State of South
Dakota, Department of Game, Fish and Parks (Department), under its hunting and fishing
programs and costs claimed under Federal Assistance grants from the U.S. Fish and Wildlife
Service (FWS) from July 1, 2001, through June 30, 2003 (see Appendix 1).

      We questioned $42,089 of ineligible costs and found that the Department’s asset
management system did not identify the funding source for personal property acquisitions.

       The Department and FWS Region 6 responded to a draft of this report on March 26,
2004. Based on the responses, we modified the findings and recommendations to incorporate
additional information provided and to clarify the report. We included the Department and FWS
responses after our recommendations and summarized the status of the report recommendations
in Appendix 3.

        Please provide us with your written response by July 26, 2004. Your response should
provide the information requested in Appendix 3. If you have any questions regarding this
report, please contact me or Mr. Lawrence Kopas, Audit Team Leader, at (703) 487-5345.


cc:     Regional Director, Region 6, U.S. Fish and Wildlife Service




                                                  1
                  IIN
                    NTTR
                       ROOD
                          DUUC
                             CTTIIO
                                  ONN

                 The Pittman-Robertson Wildlife Restoration Act, as amended
Background and   (16 U.S.C. 669), and the Dingell-Johnson Sport Fish Restoration
Scope            Act, as amended (16 U.S.C. 777), (the Acts) authorize FWS to
                 provide Federal Assistance grants to states to enhance their
                 wildlife and sport fish programs. The Acts provide for FWS to
                 reimburse the states up to 75 percent of the eligible costs
                 incurred under the grants. The Acts specify that state hunting
                 and fishing license revenues cannot be used for any purpose
                 other than administration of the state fish and game agency.

                 We performed an audit of the Federal Assistance grants to the
                 State of South Dakota as requested by FWS. The objective of
                 our audit was to evaluate: (1) the adequacy of the Department’s
                 accounting system and related internal controls; (2) the accuracy
                 and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS; (3) the
                 adequacy and reliability of the Department’s hunting and fishing
                 license fees collection, certification, and disbursement process;
                 (4) the adequacy of the Department’s asset management system
                 and related internal controls with regard to purchasing,
                 maintenance, control and disposal; and (5) the adequacy of the
                 Department’s compliance with the Acts’ assent legislation
                 requirements. The audit was also to include a review of other
                 issues considered sensitive and/or significant by the FWS. The
                 audit work at the Department included claims totaling
                 approximately $19 million on FWS grants that were open during
                 the State’s fiscal years ended June 30, 2002, and 2003 (see
                 Appendix 1).

                 Our audit was performed in accordance with the government
                 auditing standards issued by the Comptroller General of the
                 United States. Accordingly, we included such tests of records
                 and other auditing procedures that we considered necessary
                 under the circumstances. We relied on the work of the State of
                 South Dakota Single Audit Report auditors to the extent possible
                 in order to avoid a duplication of effort. Our tests included an
                 examination of evidence supporting selected expenditures
                 charged by the Department to the grants, interviews with
                 employees to ensure that all personnel costs charged to the
                 grants were supportable, and a review of the Department's use of
                 fishing and hunting license revenues to determine whether the
                 revenues were used for program purposes. The South Dakota



                                   2
              single audit was conducted by the State’s Department of
              Legislative Audit for State Fiscal Year (SFY) 2003. We
              reviewed the audit work performed by the Department of
              Legislative Audit and determined there were no significant
              findings reported. Based on our review of the audit work of the
              Department of Legislative Audit, we were able to reduce the
              amount of our internal control testing and reduce audit work in
              the areas of grant expenditure testing, assent legislation,
              drawdowns, indirect costs, license fee revenue, and program
              income. We did not evaluate the economy, efficiency, and
              effectiveness of the Department’s operations.

              Our audit was performed at the South Dakota Department of
              Game, Fish and Parks headquarters in Pierre, South Dakota. We
              also visited a lake improvement project, state fish hatcheries,
              several boating and fishing access ramps, and game production
              areas (Appendix 2).

              On December 30, 1998, we issued audit report No. 99-E-172,
Prior Audit   “Audit of U.S. Fish and Wildlife Service Federal Aid Grants to
Coverage      the State of South Dakota, Department of Game, Fish and Parks,
              for the Fiscal Years Ended June 30, 1996, and 1997.” We
              reviewed this report, followed up on all findings, and determined
              they had been resolved prior to our review.

              At the time of our fieldwork, the Department of Legislative Audit
              had completed fieldwork for its Single Audit Report on the State
              of South Dakota for the period July 1, 2002 through June 30,
              2003. The auditors had not identified any findings relative to the
              South Dakota Department of Game, Fish and Parks.




                                3
                    R
                    REESSU
                         ULLT
                            TSS O
                                OFFA
                                   AUUD
                                      DIIT
                                         T

                    Except for the issues discussed in the following sections, the
Summary             Department’s accounting system and related internal controls
                    adequately and accurately accounted for grant and license receipts
                    and disbursements; direct and indirect costs were accurately
                    reported and claimed; and the asset management system
                    accurately identified and tracked personal and real property with
                    regard to control and disposal. The State also had adequate
                    legislation that assented to the provisions of the Acts and
                    prohibited the use of license fees for anything other than the
                    administration of the Department.

                    We found that the Department:

                    ¾ Claimed ineligible costs of $42,089 ($31,567 Federal share).

                    ¾ Did not identify the source of funding (i.e., Federal Assistance,
                      license fee funds, or other) for personal property acquisitions in
                      the asset management system.

                    The Department maintained the Coteau Game Production Area,
A. Ineligible Use   Cleghorn Springs State Fish Hatchery Visitor Center building, and
   of Federal       Blue Dog Lake State Fish Hatchery operations building with
   Assistance       Federal Assistance funds. However, the property was purchased
                    and the buildings were constructed with Federal funds provided
   Funds            under the Land and Water Conservation Fund Act of 1965. FWS
                    regulations as well as the Land and Water Conservation Act do
                    not permit the use Federal Assistance funds to operate or maintain
                    properties acquired with Land and Water Conservation funds.

                    We also found that advertising costs for the Cleghorn Visitor
                    Center were paid with Federal Assistance grant funds.
                    Advertising costs may not be charged to Federal Assistance grants
                    under Office of Management and Budget (OMB) Circular A-87.

                    From 1974 to 1980, the Department purchased land to add to the
                    Coteau Game Production Area, constructed a visitor center
                    building at the Cleghorn Springs State Fish Hatchery, and
                    constructed the operations building at the Blue Dog Lake State
                    Fish Hatchery with Land and Water Conservation funds. In SFYs
                    2002 and 2003, we found that the Department was using Federal
                    Assistance funds to operate and maintain the land and buildings.
                    The Land and Water Conservation Fund Act (and related laws)
                    states that no financial aid may be given under any other Federal



                                      4
program or activity for or on account of any project with respect
to which such aid has been given or promised under the Land and
Water Conservation Fund Act. In addition, 522 FW 7.5B of the
Service Manual states that Federal Assistance funds may not be
used to operate or maintain properties or facilities purchased or
constructed under the Land and Water Conservation Fund Act.

In addition, we found that the Department paid $3,639 ($2,729
Federal share) for membership in the Black Hills Badlands and
Lakes Association. Membership in the Association allowed the
Cleghorn Springs Aquatic Center and Hatchery to be included in a
listing of Family Approved Attractions and receive more than
$11,000 worth of internet marketing. The internet marketing
included a 50-word business listing that mentioned learning about
fish management in South Dakota. We concluded that this listing
was promotion of the Hatchery; i.e., promotion of a governmental
unit, instead of aquatic education. Since OMB Circular A-87,
Attachment B, Item 2, states that unallowable advertising costs
include the costs of promoting the governmental unit, the cost of
the association membership should not be allowed.

Department officials said that over time, expenses were charged to
Federal Assistance grants for the operation and maintenance of the
land and buildings that should not have been charged. They also
said that the advertising charges were designed to promote the
objectives of the aquatic education program, not to promote the
hatchery. They added there is a need to provide greater internal
control to ensure that operation and maintenance expenses for
these sites are no longer charged to Federal Assistance.

As a result, Federal Assistance funds were used improperly on the
following grants:

                                   Grant      Questioned Federal
            Location              Number        Costs     Share
Coteau Game Production Area      W-81-D-44     $16,250   $12,188
Coteau Game Production Area      W-81-D-45         300       225
Cleghorn Springs State Fish
  Hatchery Visitor Center         F-45-E-15      5,815      4,361
Cleghorn Springs State Fish
  Hatchery Visitor Center         F-45-E-16      4,941      3,706
Blue Dog Lake State Fish
  Hatchery Operations Building    F-41-D-13     14,783     11,087
                                    Total      $42,089   $31,567




                   5
                   In an email to the regional office of FWS dated February 4, 2004,
                   the Department stated that actions to reduce current claims for
                   reimbursement of its aquatic education program, a
                   Pittman-Robertson Wildlife Restoration project, and a
                   Dingle-Johnson Sport Fish Restoration project would be initiated
                   in order to reinstate Federal funds that were improperly charged.

Recommendations We recommend that FWS:
                      1. Resolve the questioned costs of $42,089 (Federal share
                   $31,567) that were used for maintenance and operation of the land
                   and facilities and for advertising of the Cleghorn Springs Visitor
                   Center.

                      2. Identify and resolve the issue of Federal Assistance funds
                   improperly used during SFY 2004, if any, to maintain the Coteau
                   Game Production Area, operate and maintain the Cleghorn and
                   Blue Dog buildings, and advertise the Cleghorn Springs Visitor
                   Center.

                       3. Assist the Department to adopt a methodology to
                   discontinue using Federal Assistance funds to operate and maintain
                   or advertise the game production area and the two hatcheries
                   starting with the fiscal year 2005 grant cycle for the Statewide
                   Land Management and Development grant (for Coteau); the
                   Aquatic Education Program grant (for Cleghorn); and the
                   Statewide Fish Hatchery Operation, Maintenance and
                   Development grant (for Blue Dog).

Department         The Department concurred with Recommendation A.3 and
Response           non-concurred with Recommendations A.1 and A.2.

                   As to Recommendation A.1, the Department disagreed that all of
                   the questioned costs are ineligible. The Department’s position
                   was that ineligible costs associated with the operation and
                   maintenance of the Coteau Game Production Area (GPA) should
                   be limited to the $4,200 incurred to maintain land actually
                   acquired with Land and Water Conservation Funds, not the entire
                   GPA. However, the Department did concur that advertising costs
                   and expenses incurred for the operation and maintenance of the
                   Cleghorn Springs State Fish Hatchery Visitor Center and expenses
                   incurred for the operation and maintenance of the Blue Dog State
                   Fish Hatchery Operations Building should not have been charged
                   to Federal Assistance.

                   In addition, the Department did not agree with the statement in the
                   draft report that an email to the FWS regional office indicating
                   that the “state would initiate actions to reduce claims for


                                     6
              reimbursement to repay for improperly claimed operation and
              maintenance costs.” Instead, the email indicated that the
              Department would make corrections for charges it considered
              ineligible such as the costs for the operation and maintenance of
              the land actually acquired with Land and Water Conservation
              Funds. Accordingly, we revised our reference to the subject
              email.

              The Department did not completely agree with Recommendation
              A.2. Their concurrence was only related to SFY 2004 ineligible
              expenses for the Cleghorn Springs Visitor Center and the Blue
              Dog State Fish Hatchery. The non-concurrence related to the
              ineligible expenses for the Coteau GPA as explained above for
              Recommendation A.1. The Department will negotiate with FWS
              the formulation of a Corrective Action Plan that will identify the
              types of expenses that are ineligible.

  FWS         FWS concurred with the Department’s request that ineligible costs
  Response    associated with the operation and maintenance of the Coteau
              Game Production Area be limited to the costs incurred on the land
              actually acquired with Land and Water Conservation Funds, not
              the entire game production area. FWS did not comment on the
              remaining portion of the finding or recommendations.

  OIG         Section 6 (f) (1) of the Land and Water Conservation Fund Act of
  Comments    1965 requires states to operate and maintain by acceptable
              standards, at state expense, the particular properties or facilities
              acquired or developed for public outdoor recreation use. We
              believe that Section 6 (f) (1) restrictions apply to the entire
              management area included in the original funding proposal and
              not just the property acquired with the Land and Water
              Conservation Funds. Therefore, it is possible that all the operation
              and maintenance expenses related to the Coteau GPA may be
              ineligible for Federal Assistance.

              As a result, we consider the finding unresolved. FWS should
              reconsider its response to the finding relating to whether all of the
              operation and maintenance costs for Coteau GPA are ineligible
              and address this finding and the recommendations in the
              corrective action plan.

              The South Dakota Fixed Asset System used by the Department
B. Personal   did not identify personal property by funding source. Therefore,
   Property   we could not determine if property purchased with Federal
              Assistance funds, license fee funds, or other funds was being used
              only by Division of Wildlife employees within the Department,
              and not by Division of Parks and Recreation employees or others.



                                 7
                      50 CFR § 80.18(c) specifies that the State’s responsibilities in
                      conducting activities funded by Federal Assistance grants include
                      the accountability and control of all assets to assure that they serve
                      the purpose for which they were acquired. Although the Fixed
                      Asset System database included a data field to record the funding
                      source, as noted on purchase documents, the data field was not
                      always completed. As a result, we were unable to identify the
                      source of funding used to acquire equipment and to determine
                      whether equipment purchased with Federal Assistance and license
                      fee funds was used for the purpose for which it was acquired.

Recommendations We recommend that FWS require the Department to identify
                      equipment purchased with Federal Assistance and license fee
                      funds in its asset management database.

Department            The Department concurred with the finding and recommendation
Response              and will propose a correction to this issue in their comments on
                      the final audit report.

FWS                   FWS did not have any comments.
Response
OIG                   We consider the actions taken by the Department to be
Comments              appropriate. FWS should address this finding in the corrective
                      action plan.




                                         8
                                                             APPENDIX 1


              STATE OF SOUTH DAKOTA
        DEPARTMENT OF GAME, FISH AND PARKS
      FINANCIAL SUMMARY OF REVIEW COVERAGE
                                       Questioned Costs
    Grant                Claimed
   Number    Amount       Costs      Total     Federal Share   Notes
F-15-R-36    $679,693    $442,873
F-15-R-37     546,220     465,575
F-15-R-38     436,399      76,336
F-21-R-34    1,168,500    544,218
F-21-R-35    1,073,500   1,161,194
F-21-R-36    1,128,500    491,336
F-38-DB-30    721,435     542,165
F-38-DB-31   1,073,898    944,459
F-38-DB-32   1,585,749   1,130,244
F-38-DB-33    172,089      25,964
F-38-DB-34   2,143,111    279,056
F-38-DB-35    272,388       9,256
F-41-D-13    1,073,534    299,740    $14,783       $11,087       1
F-43-D-13     135,870         445
F-43-D-14     275,800     143,080
F-43-D-15      95,800      21,002
F-45-E-15     265,380     155,055      5,815         4,361       2
F-45-E-16     290,600     158,851      4,941         3,706       2
F-54-R-4       20,000      20,000
F-55-R-2      161,400     185,258
F-55-R-3      227,400     163,528
F-56-D-1     2,335,869   1,550,935
F-57-R-1      117,798      22,078
W-75-R-44     723,774     643,534
W-75-R-45     849,475     758,195
W-81-D-44    1,577,800   1,497,891    16,250        12,188       3
W-81-D-45    1,720,000   1,870,527      300            225       3
W-92-D-37     231,098     231,098




                              9
                                                                                                  APPENDIX 1

                                                                        Questioned Costs
        Grant                                    Claimed
       Number              Amount                 Costs              Total       Federal Share         Notes
  W-92-D-38                  257,382               257,382
  W-92-D-39                  263,377                 98,294
  W-95-R-35                  541,520               362,361
  W-95-R-36                  472,640               528,306
  W-95-R-37                  736,400                 91,495
  W-96-E-30                  328,522               240,181
  W-96-E-31                  299,712               219,298
  W-96-E-32                  438,292                 42,406
  W-107-R-13                 217,233               198,008
  W-107-R-14                 161,333               139,614
  W-114-R-10                 116,000                 96,409
  W-114-R-11                   46,667                46,667
  W-117-L-11               1,187,336             1,001,247
  W-117-L-12               1,241,202             1,134,246
  W-117-L-13               1,272,617                 32,540
  W-142-E-1                  100,000                 22,602
  W-142-E-2                    93,860                55,277
  W-143-L-1                  213,300               213,300
                        $29,090,473           $18,613,526           $42,089            $31,567

Notes:
         1. Questioned costs pertain to the Statewide Fish Hatchery Operation, Maintenance and Development
funds that were ineligible to be used to operate and maintain the Blue Dog State Fish Hatchery Building (see A.
Ineligible Use of Federal Assistance Funds).

        2. Questioned costs pertain to the aquatic education funds that were ineligible to be used to operate and
maintain and to advertise the Cleghorn Springs State Fish Hatchery Visitor Center (see A. Ineligible Use of Federal
Assistance Funds).

          3. Questioned costs pertain to the Statewide Land Management and Development funds that were
ineligible to be used to maintain the Coteau Game Production Area (see A. Ineligible Use of Federal Assistance
Funds).




                                                        10
                                             APPENDIX 2


      STATE OF SOUTH DAKOTA
DEPARTMENT OF GAME, FISH AND PARKS
           SITES VISITED


              Fishing Access Sites:
                   Bear Butte
                    Cox Lake
                  Curlew Lake
                   Mirror Lake


              Boating Access Sites:
                    New Wall
                  Tisdale Lake


            Game Production Areas:
                   Moe Slough
                      Roth


             State Fish Hatcheries:
                 Blue Dog Lake
                Cleghorn Springs
                    McNenny


            Offices/Other Locations:
              Region 1, Rapid City
              Region 3, Sioux Falls
            Mobridge District Office
        Missouri River Reservoir Fisheries
        American Creek Fisheries Station
                   Lake Henry




                       11
                                                                     APPENDIX 3


                     STATUS OF AUDIT FINDINGS
                      AND RECOMMENDATIONS


Recommendation                   Status                 Action Required

    A.1, A.2, A.3,     Finding unresolved and   Provide a response to the
        and B          Recommendations          recommendation that states
                       Unimplemented            concurrence or non-concurrence.
                                                Provide a corrective action plan
                                                that includes the target date and
                                                the official responsible for
                                                implementation of the
                                                recommendation or alternative
                                                solution. Unresolved findings and
                                                unimplemented recommendations
                                                remaining at the end of 90 days
                                                (after July 23, 2004) will be
                                                referred to the Assistant Secretary
                                                of PMB for resolution and/or
                                                tracking of implementation.




                                          12
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
